                                              BUREAU OF INTERNATIONAL
                                              LABOR AFFAIRS

Office of Inspector General—Office of Audit




                                              JESUS CARES MINISTRIES
                                              REDUCING CHILD LABOR
                                              THROUGH EDUCATION




                                                                    Date Issued: September 8, 2005
                                                                    Report Number: 03-05-001-01-070
U.S. Department of Labor                               August 2005
Office of Inspector General
Office of Audit                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education
                                                       Period September 1, 2002 to August 31, 2004
BRIEFLY…
Highlights of Report Number: 03-05-001-01-070, to      WHAT OIG FOUND
the Acting Deputy Under Secretary for International    The OIG found JCM did not obtain approval for
Labor Affairs.                                         using DOL funds for building construction and did
                                                       not expend DOL funds in accordance with cost
WHY READ THE REPORT                                    principles; as a result, we questioned $5,753 of
The Bureau of International Labor Affairs (ILAB)       costs. JCM used DOL funds for religious activities
administers U.S. Department of Labor grants and        and inappropriately cited DOL in religious material;
cooperative agreements for projects worldwide that     as a result, we question $741 of unallowable
remove and prevent thousands of vulnerable             religious activity costs. Finally, JCM does not have
children from exploitation or hazardous work, and      adequate DOL funds to sustain its Child Labor
makes basic education accessible and relevant in       Education Initiative program through the remaining 2
order to meet their needs. In August 2002, ILAB        years of the cooperative agreement. JCM reported
awarded a cooperative agreement to Jesus Cares         that it spent most of its funds and exceeded its goal
Ministries (JCM) located in Zambia, Africa. The        of removing over 2,040 children from the labor force
cooperative agreement obligated $652,000 for the       and putting them into education due to the
period September 1, 2002, through August 27, 2006.     overwhelming needs of the children. At the time of
The objective of the cooperative agreement was to      our fieldwork, JCM had expended 86 percent of the
support combating child labor through education.       DOL funds awarded even though there were 2 years
JCM’s goal in the cooperative agreement was to         remaining on the 4-year cooperative agreement.
serve 2,040 children and, as of November 2004,         We also noted funding shortages because JCM had
JCM reported to ILAB that they served 2,747            not budgeted for all its administrative costs and did
children.                                              not take into account Zambia’s high inflation rate.

WHY OIG DID THE AUDIT                                  WHAT OIG RECOMMENDED
The purpose of our audit was to obtain answers to      We recommended that the Acting Deputy Under
concerns ILAB had regarding JCM’s administration       Secretary for International Labor Affairs recover
of the cooperative agreement. Specifically, our        $5,753 in questioned costs and direct JCM to obtain
objectives were: (1) Did JCM obtain approval from      an approved indirect cost rate, recover $741 of
ILAB for program funds used for building               unallowable religious costs.
construction? (2) Did JCM use program funds for
religious activities? and (3) Does JCM have            ILAB should require JCM to (1) become
adequate funding to sustain the program through the    knowledgeable of OMB Circular A-122, (2) develop
cooperative agreement period?                          and implement procedures regarding religious
                                                       activity costs, (3) budget for administrative costs and
In addition to ILAB’s concerns, we also reviewed       inflation, (4) comply with drawdown limits, and (5)
costs to determine if JCM used program funds in        provide detailed quarterly expenditure reports.
accordance with Office of Management and Budget
(OMB) Circular A-122 cost principles.                  ILAB and JCM agreed with and plan to implement
                                                       our recommendations.
READ THE FULL REPORT
To view the report, including the scope,
methodology, and full agency and JCM responses,
go to:
http://www.oig.dol.gov/public/reports/oa/2005/03-05-
001-01-070.
                                                                                               Jesus Cares Ministries
                                                                              Reducing Child Labor Through Education



Table of Contents
                                                                                                                              PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7
       1. JCM Did Not Obtain Approval for Using DOL Funds for
          Building Construction and Did Not Expend DOL Funds
          in Accordance With Cost Principles...........................................................................8

       2. JCM Used DOL Funds for Religious Activities and
          Inappropriately Cited DOL in Religious Material.....................................................12

       3. JCM Does Not Have Adequate Funding to Sustain the
          Program for the Remaining 2 Years of the Cooperative Agreement.....................15


EXHIBITS...................................................................................................................... 21
       A. Schedule of Question Costs......................................................................................23

       B. Schedule of Costs Tested for Reasonableness, Allowability
          and Allocability...........................................................................................................25

       C. Map of Zambia ...........................................................................................................27


APPENDICES ............................................................................................................... 29
       A. Background..................................................................................................................31

       B. Objectives, Scope, Methodology, and Criteria .........................................................35

       C. Acronyms and Abbreviations.....................................................................................39

       D. Agency and JCM Responses .....................................................................................41




U.S. Department of Labor—Office of Inspector General                                                                                  1
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education



Executive Summary
The Bureau of International Labor Affairs (ILAB) administers U.S. Department of
Labor (DOL) grants and cooperative agreements for projects worldwide that
remove and prevent thousands of vulnerable children from exploitation or
hazardous work, and makes basic education accessible and relevant in order to
meet their needs. In fiscal year (FY) 2001, ILAB began funding the Child Labor
Education Initiative. Under the Child Labor Education Initiative, ILAB awarded a
cooperative agreement to Jesus Cares Ministries (JCM) located in Zambia,
Africa. The cooperative agreement obligated $652,000 for the period
September 1, 2002, through August 27, 2006. The objective of the cooperative
agreement is to support combating child labor through education. JCM’s goal in
the cooperative agreement was to serve 2,040 children and, as of November
2004, JCM reported to ILAB that they served 2,747 children.

The purpose of our audit was to obtain answers to concerns ILAB had regarding JCM’s
administration of the cooperative agreement. Specifically, our objectives were:

   1. Did JCM obtain approval from ILAB for program funds used for building
      construction?

   2. Did JCM use program funds for religious activities?

   3. Does JCM have adequate funding to sustain the program through the
      cooperative agreement period?

In addition to ILAB’s concerns, we also reviewed costs to determine if JCM used
program funds in accordance with Office of Management and Budget (OMB) Circular A-
122 cost principles. OMB Circular A-122 establishes the principles for determining
costs of grants, contracts, and other agreements with nonprofit organizations.

Results

We found that:

   1. JCM did not obtain approval for using DOL funds for building construction
      and did not expend DOL funds in accordance with cost principles.
      Specifically, JCM did not obtain approval from ILAB to use funds for the
      construction of a school; maintain adequate documentation for expenses;
      and allocate costs that benefited more than one funding source. These
      conditions occurred because JCM did not fully understand the
      requirements of OMB Circular A-122 cost principles on the need for
      obtaining approval to use funds for capital construction projects and
      allocating costs that benefited more than one funding source, and

U.S. Department of Labor—Office of Inspector General                                        3
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education

         therefore, did not have the necessary controls in place. Also, JCM did not
         follow its policies and procedures in ensuring that all expenses were
         adequately documented. As a result, JCM charged $156,969 in costs to
         the DOL cooperative agreement that did not meet the cost principle
         requirements in OMB Circular A-122. This consisted of $2,020 for
         construction costs not approved, $3,733 for costs not supported, and
         $151,216 for costs not properly allocated.

    2. JCM used DOL funds for religious activities and inappropriately cited DOL in
       religious material. Use of Federal funds for religious activities is unallowable.
       Federal law prohibits direct government support of “inherently religious” activities,
       including religious worship, or instruction. This prohibition is based upon the
       Establishment Clause of the First Amendment of the U.S. Constitution.
       Specifically, JCM charged to the cooperative agreement a portion of teachers’
       salaries that included religious instruction. This occurred because although JCM
       was aware of the prohibition of using DOL funds for religious activities, JCM did
       not implement controls to ensure that DOL funds were not used for religious
       activities. As a result, JCM charged the cooperative agreement $741 for
       unallowable teachers’ salaries. We also found that JCM inappropriately cited
       DOL in its newsletter and in a video that contained religious references by
       crediting DOL with funding JCM’s activities. Readers of the newsletter and
       viewers of the video might assume that DOL approves of using its funds to
       support JCM’s religious activities. JCM officials told us they plan to revise the
       video to omit the reference to DOL.

    3. JCM does not have adequate DOL funds to sustain its Child Labor Education
       Initiative program through the remaining 2 years of the cooperative agreement.
       JCM reported that it spent most of its funds and exceeded its goal of removing
       over 2,0401 children from the labor force and putting them into education due to
       the overwhelming needs of the children. At the time of our fieldwork, JCM had
       expended 86 percent of the DOL funds awarded even though there were 2 years
       remaining on the 4-year cooperative agreement. We also noted funding
       shortages because JCM had not budgeted for all its administrative costs and did
       not take into account Zambia’s high inflation rate (which ranged between 17 and
       27 percent) when it developed the cooperative agreement budget. Subsequent
       to our fieldwork, in January 2005, ILAB officials informed us that JCM had
       expended all the cooperative agreement funds. In May 2005, ILAB received
       approval from the Office of Administration and Management’s Procurement
       Review Board to provide additional funding in the amount of $750,000 to extend
       the cooperative agreement with JCM for 3 years. ILAB officials told us they were
       waiting for the results of our audit before awarding JCM the additional funding.

         See Exhibit A for schedule of questioned costs.


1
 Our audit did not include participant eligibility or reported performance data and outcomes; therefore, this number
was not audited.

4                                                   U.S. Department of Labor—Office of Inspector General
                                                                        Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education



Recommendations

We recommend that the Acting Deputy Under Secretary for International Labor Affairs
take the following corrective action:

   1. Recover the $5,753 in questioned costs for the construction not approved and
      the costs not adequately documented. Concerning the $151,216 in
      administrative costs whose allocation to the cooperative agreement was not
      supported, direct JCM to develop and submit for approval an indirect cost
      proposal, or other allocation methodology, for the cooperative agreement period
      covering those costs that benefited more than one program or activity. Based on
      the results of the approved indirect cost rate or other allocation methodologies,
      recover the amount of any administrative costs that JCM overcharged the
      cooperative agreement.

   2. Recover $741 of unallowable religious activity costs from JCM.

   3. Verify that JCM revised the video tape cited in Finding Number 2, and instruct
      JCM to ensure that any media it produces, such as videotapes or literature, that
      credits DOL as JCM’s primary funding source and simultaneously includes
      religious references, includes language so that it is clear that DOL is not funding
      religious activities.

If ILAB decides to continue with the cooperative agreement, we recommend the Deputy
Under Secretary for International Labor Affairs direct JCM to take the following
corrective action:

   4. Review and become knowledgeable of OMB Circular A-122 principles, and
      develop and implement procedures and controls, or comply with existing
      procedures and controls, so that

          a. approval is obtained from ILAB before incurring costs for capital
             construction projects;
          b. costs are adequately supported; and
          c. costs are allocated to the benefiting programs, including the submission of
             an indirect cost proposal or other allocation methodology to DOL for
             approval.

   5. Develop and implement procedures to ensure DOL funds are not used for
      religious activity costs.

   6. Budget for all administrative costs and factor in Zambia’s inflation rates.

   7. Comply with the limits stated in the cooperative agreement concerning fund
      drawdowns.

U.S. Department of Labor—Office of Inspector General                                        5
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education


    8. Provide detailed quarterly expenditure reports so that responsible ILAB officials
       can compare the budgeted costs to actual expenses and significant variances
       are identified and appropriate action is taken.

Agency Response

ILAB concurred with our eight recommendations and its response is attached as
Appendix D.

JCM Response

Concerning our finding that JCM used DOL funds for religious activities, JCM officials
responded that although they were aware of the prohibition of using DOL funds for
religious activities, their understanding was narrow and they did not know that religious
education, which is part of the Primary school education curriculum, was also forbidden.
Otherwise, JCM officials responded that they agree with the rest of the report. JCM’s
response is attached as Appendix E.

OIG Conclusion

Recommendations 1 and 2 will be resolved through the audit resolution process.
Recommendations 3, 4, 7, and 8 are resolved and recommendations 5 and 6 are
resolved and closed.




6                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                            Jesus Cares Ministries
                                                           Reducing Child Labor Through Education

U.S. Department of Labor            Office of Inspector General
                                                    Washington, DC 20210




                         Assistant Inspector General’s Report

Ms. Martha Newton
Acting Deputy Under Secretary
 for International Labor Affairs
U.S. Department of Labor
200 Constitution Ave., N.W.
Washington, D.C. 20210

This report summarizes the results of our performance audit of a $652,000 cooperative
agreement awarded to Jesus Cares Ministries (JCM) by the Bureau of International
Labor Affairs (ILAB) as part of its Child Labor Education Initiative. JCM is located in
Zambia, Africa. The objective of the cooperative agreement, which covers the period
September 1, 2002, through August 27, 2006, is to support combating child labor
through education. JCM’s goal stated in the cooperative agreement was to serve 2,040
children and, as of November 2004, JCM reported to ILAB that it served 2,747 children.

The purpose of our audit was to obtain answers to concerns ILAB had regarding JCM’s
administration of the cooperative agreement. Specifically, our objectives were:

   1. Did JCM obtain approval from ILAB for program funds used for building
      construction?

   2. Did JCM use program funds for religious activities?

   3. Does JCM have adequate funding to sustain the program through the
      cooperative agreement period?

In addition to ILAB’s concerns, we also reviewed costs to determine if JCM used
program funds in accordance with Office of Management and Budget (OMB) Circular A-
122 cost principles. OMB Circular A-122 establishes the principles for determining
costs of grants, contracts, and other agreements with nonprofit organizations.

We conducted the audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendix B.




U.S. Department of Labor—Office of Inspector General                                            7
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education

Objective 1 – Did JCM obtain approval from ILAB for program funds used for building
construction and use program funds in accordance with cost principles?

Finding

JCM did not obtain approval for using DOL funds for building construction and did not
expend DOL funds in accordance with cost principles. Specifically, JCM did not: obtain
approval from ILAB to use funds for the construction of a school; maintain adequate
documentation for expenses; and allocate costs that benefited more than one funding
source. These conditions occurred because JCM did not fully understand the
requirements of OMB Circular A-122 cost principles on the need for obtaining approval
to use funds for capital construction projects and allocating costs that benefited more
than one funding source, and therefore, did not have the necessary controls in place.
Also, JCM did not follow its policies and procedures in ensuring that all expenses were
adequately documented. As a result, JCM charged $156,969 in costs to the DOL
cooperative agreement that did not meet the cost principle requirements in OMB
Circular A-122. This consisted of $2,020 for construction costs not approved, $3,733 for
costs not supported, and $151,216 for costs not properly allocated.

Construction Funds Were Not Approved

JCM did not obtain the required approval from ILAB to use $2,020 in DOL funds to
construct a new school in Nsanjika, Zambia.

OMB Circular A-122, Attachment B, Selected Items of Cost, 15(b)1 states that capital
expenditures for general purpose equipment, building, and land are unallowable as
direct charges, except where approved in advance by the awarding agency.
Additionally, 15(b)32 states that capital expenditures for improvements to land,
buildings, or equipment, which materially increase their value or useful life, are
unallowable as a direct cost except with the prior approval of the awarding agency.

JCM operates eight schools located in three provinces in Zambia. JCM operates eight
schools located in three provinces in Zambia. One of ILAB's concerns was that JCM
was using the cooperative agreement funds for construction without ILAB’s approval. In
January 2004, ILAB officials were aware that one of the JCM schools incurred storm
damage to a roof and JCM needed to have it repaired. ILAB gave JCM approval to use
cooperative agreement funds to make the repair. In July 2004, ILAB officials noted
other construction activity in JCM’s progress report. ILAB officials requested additional
information on the construction activity and directed JCM to stop any construction
activity not approved by ILAB. After JCM provided the requested information, ILAB
provided JCM approval for specific projects.




2
 The prior version of A-122, dated June 1998, had this requirement cited as 15(d). All other requirements were
cited as the same in both versions.

8                                                  U.S. Department of Labor—Office of Inspector General
                                                                       Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education

Based on our audit, we found that JCM used $11,713 of DOL funds for construction,
repairs, and maintenance related to six schools. We reviewed the supporting invoices
and visited four schools to verify the work performed. The following table shows the
amount of DOL funds JCM used for construction or repairs and maintenance at the six
schools.


                            Construction Activity                            Amount

     ▪ Roof repair at the Kagoro school                                          $6,263
       Repairs and maintenance at the Chiparamba, Chulukusu,
                                                                                   3,430
       George, and Mtendere schools
     ▪ Construction of a new building at the Nsanjika school                      2,020
                                                                     Total      $11,713

We found that JCM obtained approval from ILAB for the roof repair at the Kagoro
school. The repairs and maintenance at the four schools cited in the above chart were
not capital improvements, and therefore, did not require prior approval. However, the
construction of a new school at Nsanjika was a capital expenditure for which it did not
obtain prior approval from ILAB. During our visit to the Nsanjika school on
September 17, 2004, we observed a new building under construction that is shown in
the photograph below.




JCM officials stated that they currently teach students in Nsanjika at a building owned
by the Zambian Ministry of Education; however, the school is operating at full capacity.
To address the capacity problem and allow for a more stable presence in the
community, JCM began construction on a new school on the same land as the public
school. The community provided the bricks and contributed their labor towards the
construction. JCM used the $2,020 in DOL funds to prepare the site and assist with the
construction. At the time of our audit, the school building construction was in progress

U.S. Department of Labor—Office of Inspector General                                        9
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education

and JCM officials told us that they would not use any more DOL funds towards it. We
concluded that this construction was a capital expenditure that required ILAB approval.
However, since JCM did not obtain approval from ILAB to use cooperative agreement
funds before the construction of the new school, we determined the $2,020 were
unallowable costs.

Payments to Several Vendors Were Not Adequately Documented

We selected a judgmental sample of 34 high-risk expense items totaling $31,042 from
JCM’s general ledger to determine if the costs were allowable, reasonable, and
allocable to the cooperative agreement. The items covered the time period from the
inception of the cooperative agreement to August 31, 2004, and the total cost of these
items represented 6 percent of the $560,559 reported costs charged to the cooperative
agreement at the time of our fieldwork. JCM was unable to provide us with adequate
supporting documentation for ten invoices totaling $3,733. This occurred because JCM
did not follow its policies and procedures in ensuring that all expenses were adequately
supported. Therefore, we question these costs.

OMB Circular A-122, Attachment A, A.2.g states that to be allowable under an award,
costs must be adequately documented. JCM’s Financial Accounting Manual on
disbursements requires that all payments be supported by payment vouchers and
receipts.

Indirect Costs Were Not Allocated by Benefits Received

JCM receives funding from multiple sources and operates activities other than those
funded by the cooperative agreement. However, JCM did not maintain a system to
properly allocate indirect costs to final cost objectives. This occurred because JCM did
not have policies and procedures that required: (1) costs benefiting more than one
program or activity be identified; (2) an allocation methodology be developed to ensure
such costs are charged to each benefiting program or activity; and (3) the allocation
methodology developed be submitted to DOL for approval. Therefore, we question the
$151,216 in administrative costs that JCM charged to the cooperative agreement.

OMB Circular A-122, Attachment A.4.a states that a cost is allocable to a particular cost
objective, such as a grant, contract, project, service, or other activity, in accordance with
the relative benefits received. Also, OMB Circular A-122, Attachment A, Section D.1.b
states:

      Where an organization has several major functions that benefit from its
      indirect costs in varying degrees, allocation of indirect costs may require
      the accumulation of such costs into separate cost groupings which then are
      allocated individually to benefiting functions by means of a base that best
      measures the relative degree of benefit. The indirect costs allocated to
      each function are then distributed to individual awards and other activities
      included in that function by means of an indirect cost rate(s).


10                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education


OMB Circular A-122, Attachment A, Section E.2.b, requires that a nonprofit organization
which has not previously established an indirect cost rate with a Federal agency shall
submit its initial indirect cost proposal immediately after the organization is advised an
award will be made, and in no event, later than 3 months after the effective date of the
award.

We found that JCM receives non-monetary donations and monetary funding from
organizations other than DOL but does not have an indirect cost plan or allocation
methodology for expenses that benefit the funding source of the programs it operates.
The following schedule shows the sources and the amount of monetary funds provided
to JCM for the period 2002 to 2004.

               Funding Source        2002        2003         2004         Total
           DOL                      $652,000                              $652,000
           ILO/IPEC                              $11,500      $93,850      $105,350
           Kinder Not Hilfe                     $100,000     $294,500     $394,500
           UNICEF                                             $20,700       $20,700
           Zambia Government          $7,500      $8,000       $8,000       $23,500
           Firelight                             $10,000                    $10,000
           Total                    $659,500     129,500      417,050    $1,206,050


From the judgmental sample of 34 expense items previously mentioned, we found three
items, totaling $451, that benefited all of JCM’s programs and activities. Subsequent to
our audit period, JCM compiled a schedule of the indirect costs they charged to the
cooperative agreement as of August 31, 2004. The amount totaled $151,216. We did
not perform any additional testing.

The JCM financial director told us they do not have an indirect cost plan and he charged
all of JCM’s indirect cost to the cooperative agreement. Additionally, JCM officials
stated that they used the funds received from the other organizations to supplement the
activities funded by the cooperative agreement. Therefore, they did not consider the
indirect cost, such as administrative costs, to be shared costs. JCM officials stated that
they have now made it a policy that funding received from organizations to supplement
or fund any project must contribute a percentage to the administrative costs.

We questioned the total amount of indirect costs until JCM develops an indirect cost
proposal or other allocation methodology and submits it to DOL’s Office of Cost
Determination for approval. The grant officer can then adjust the amount of questioned
costs to reflect the difference between the amount of indirect costs charged to the
cooperative agreement and the actual amount of indirect costs that benefit the
cooperative agreement.

          *              *             *                *            *                *




U.S. Department of Labor—Office of Inspector General                                       11
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education

See Exhibit B for a schedule of the expenses audited and the amount questioned as not
supported.

JCM officials told us that they were not fully aware of the cost principle requirements in
OMB Circular A-122. The JCM financial director, who was not employed with JCM
when the cooperative agreement was awarded, told us he was unsure if anyone in JCM
received training on the cost principles. ILAB officials stated that their procurement
office does ensure that grantees are aware of administrative standards and provisions
as stated in 29 Code of Federal Regulations (CFR) part 95 titled Uniform Administrative
Requirements Governing Department of Labor Grants and Agreements. Title 29 CFR
Part 95 contains the administrative requirements for nonprofit organizations including a
section on the allowability of costs and cites the applicable OMB Circulars.

Subsequent to our fieldwork, in January 2005, ILAB officials informed us that JCM had
expended all the cooperative agreement funds. In May 2005, ILAB received approval
from the Office of Administration and Management’s Procurement Review Board to
provide additional funding in the amount of $750,000 to extend the cooperative
agreement with JCM for 3 years. ILAB officials told us they were waiting for the results
of our audit before awarding JCM the additional funding.


Objective 2 – Did JCM use program funds for religious activities?


Finding

JCM used DOL funds for religious activities and inappropriately cited DOL in religious
material. Use of Federal funds for religious activities is unallowable. Federal law
prohibits direct government support of “inherently religious” activities, including religious
worship, or instruction. This prohibition is based upon the Establishment Clause of the
First Amendment of the U.S. Constitution. Specifically, JCM charged to the cooperative
agreement a portion of teachers’ salaries that included religious instruction. This
occurred because although JCM was aware of the prohibition of using DOL funds for
religious activities, JCM did not implement controls to ensure that DOL funds were not
used for religious activities. As a result, JCM charged the cooperative agreement $741
for unallowable teachers’ salaries. We also found that JCM inappropriately cited DOL in
its newsletter and in a video that contained religious references by crediting DOL with
funding JCM’s activities. Readers of the newsletter and viewers of the video might
assume that DOL approves of using its funds to support JCM’s religious activities. JCM
officials told us they plan to revise the video to omit the reference to DOL.

Federal law prohibits direct government support of “inherently religious” activities,
including religious worship, or instruction. The Supreme Court had established the
contours of the doctrine commonly known as the “separation of church and state.” This
doctrine is based upon the Establishment Clause of the First Amendment of the U.S.
Constitution that states:


12                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education


   Congress shall make no law respecting the establishment of religion.

Section IV of the Cooperative Agreement, Acknowledgement of DOL's Role, requires
JCM to acknowledge DOL's role on all items produced using DOL funds; however,
language of the acknowledgement should be limited to "Funding Provided by the U.S.
Department of Labor under cooperative agreement number E-9-K-2-0064".

Teachers’ salary costs for religious instruction charged to the cooperative agreement.

Zambian law requires religious education be taught in schools. We found that students
enrolled in JCM transitional schools must attend religious education classes. Religious
education includes reading and discussing passages of the Bible and quoting Christian
scriptures for the spiritual and religious development of the child.

To determine if JCM used DOL funds for religious activities, we judgmentally selected
invoices totaling $22,729 and identified the purpose of the expense. We also visited
schools and interviewed teachers to determine the amount of time teachers spent
teaching religion. The only exception found was the teacher’s salary costs.

Through interviews with various JCM staff and teachers and analysis of class
schedules, we determined that approximately 7.5 percent of a teacher’s time is spent
teaching religious education. Using payroll records and an employee listing, we
determined that the teachers’ salaries for the eight JCM schools totaled $9,877 for the
period November 2002 through August 2004. Applying the 7.5 percent allocation for
religious education, we calculated that JCM used $741 of DOL funds for teaching
religious classes and, therefore, the costs are unallowable.

JCM officials stated that Zambia law requires religious education be taught in all
schools. Since religious education is included in the standard syllabus, they were not
aware that this portion of the education was not allowable under the cooperative
agreement. JCM officials held discussions with the Community Schools Secretariat
who told them that the syllabus is flexible. JCM officials stated that starting January
2005, they revised the syllabus so that religious education will not be charged to the
cooperative agreement.

Newsletter and videotape could be interpreted as DOL promoting religious activities.

JCM issued a newsletter dated August 2003, that identified DOL as the funding source
for the publication. Included in the newsletter was an acknowledgement that read, as
follows:

       We thank the Lord our God for an opportunity to serve and impact lives.
       Jesus really cares!!!
       We thank God for the knowledge, wisdom and strength to do the child
       labour projects.


U.S. Department of Labor—Office of Inspector General                                       13
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education

       Glory and Honour goes back to Him who made all things possible.
       And appreciation goes to all JCM staff and the community for their
       commitment and hard work towards the child labour programmes.
       Again thank you USDOL and ILO/IPEC for supporting the children of
       Zambia through education.

The newsletter also cited in several places that participants in JCM schools will receive
spiritual counseling. We concluded that this was a religious activity.

ILAB had concerns about JCM’s spending of DOL funds for a videotape that JCM
produced entitled “Ray of Hope.” The videotape contained segments that were devoted
to religious activities, such as children singing and reciting prayers. Frequent
references to Jesus Christ permeated the text. We examined the invoices and
interviewed JCM officials, and determined that JCM did not use DOL funds to produce
the video. However, the videotape often cited DOL as the primary funding source for
JCM programs.

Based on consultation from OIG’s legal counsel, it is our position that the language in
the newsletter and the videotape could be viewed as DOL supporting the use of
cooperative agreement funds for religious activities. Specifically, the statement in the
newsletter thanking the USDOL and ILO/IPEC for “supporting the children of Zambia
through education” along with the references to spiritual counseling could give the
impression that DOL is funding JCM’s religious activities.

Although JCM did not finance the video with DOL funds, the video raises concerns
about whether viewers are given the impression that DOL funds JCM’s religious
activities. JCM should revise the video to ensure that statements about DOL funding
are omitted, or that the text concerning DOL funds made clear that they were used only
for secular, not religious, activities. JCM officials told us that they have decided to
remove religious references from the video. They also told us they would not use DOL
funds to revise the video.

ILAB officials told us they recently revised their standard cooperative agreement format
to address this issue. We found the standard cooperative agreement format used by
ILAB now contains a clause in the special program requirements section that
specifically prohibits the use of Federal funds for religious activities. ILAB also
developed Management Procedures and Guidelines (MPG) and incorporated this into
the standard cooperative agreement format as an additional requirement to be followed
by recipients. Section 12 of the MPG also contains a clause concerning the prohibition
of using DOL funds for religious activities. We concluded that this action should help
ensure that recipients of DOL funds from ILAB are aware that they are prohibited from
using DOL funds for religious activities.




14                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                                     Jesus Cares Ministries
                                                                    Reducing Child Labor Through Education

Objective 3 – Does JCM have adequate funding to sustain the program through the
cooperative agreement period?

Finding

JCM does not have adequate DOL funds to sustain its Child Labor Education Initiative
program through the remaining 2 years of the cooperative agreement. JCM reported
that it spent most of its funds and exceeded its goal of removing over 2,040 children
from the labor force and putting them into education due to the overwhelming needs of
the children. At the time of our fieldwork, JCM had expended 86 percent of the DOL
funds awarded even though there were 2 years remaining on the 4-year cooperative
agreement. We also noted funding shortages because JCM had not budgeted for all its
administrative costs and did not take into account Zambia’s high inflation rate (which
ranged between 17 and 27 percent) when it developed the cooperative agreement
budget. Subsequent to our fieldwork, ILAB officials informed us that by January 2005,
JCM had expended all the cooperative agreement funds. In May 2005, ILAB received
approval from the Office of Administration and Management’s Procurement Review
Board to provide additional funding in the amount of $750,000 to extend the cooperative
agreement with JCM for 3 years. ILAB officials told us they were waiting for the results
of our audit before awarding JCM the additional funding.

ILAB awarded JCM $652,000 for the Child Labor Education Initiative cooperative
agreement. The cooperative agreement term is September 1, 2002, through
August 27, 2006. Due to rapid use of grant funds, ILAB expressed concerns to JCM
regarding the financial sustainability of the project for the 4-year grant period. Our
analysis of JCM’s budget and expenditure data showed that as of August 31, 2004,
JCM charged $560,559 to the cooperative agreement, leaving a balance of only
$91,442 for the last 2 years of the agreement.

We found three factors that contributed to the rapid use of grant funds – JCM served
more children than was expected within the timeframe of the cooperative agreement,
JCM over-spent its administrative budget, and JCM did not account for Zambia’s high
rate of inflation in its budget.

    Children Served

    The project document in the cooperative agreement states that JCM will remove
    2,040 children from the labor force and put them in education within the 4-year
    period of the agreement. In January 2005, JCM reported that it exceeded its goal by
    removing 2,7473 children from the labor force and putting them into education with 2
    years remaining in the cooperative agreement period.


3
  Our audit did not include participant eligibility or reported performance data and outcomes; therefore, this number
was not audited. ILAB officials reviewed JCM’s performance data and told us they did not find any problems with
the reported data.

U.S. Department of Labor—Office of Inspector General                                                               15
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education

     Administrative Costs

     JCM did not budget for all their administrative costs. We compared JCM’s budget to
     a schedule of administrative costs that JCM charged to the cooperative agreement
     for our audit period and determined there were expenses that were not in the
     budget. These expenses, which totaled $36,445, were for administrative items such
     as utilities, fuel, motor vehicle maintenance, per diem allowances, and stationery

     Inflation

     JCM officials told us they did not budget for inflation when it submitted its original
     budget request. Zambia’s inflation rate for 2002 and 2003 was 27 and 17 percent,
     respectively. The inflation rate is the overall annual percentage change in consumer
     prices compared with the previous year’s consumer prices. For example, in 2002,
     children shoes cost $10 (52,100 kwacha); in 2004, the same shoes cost $17 (87,000
     kwacha). This translates into about a 70 percent increase.

We also found that JCM exceeded the allowable amount of drawdowns of cooperative
agreement funds within the 2-year timeframe. According to Section II, paragraph E of
the special provisions in the Notice of Award, advances shall not be requested for
amounts in excess of the amount determined by dividing the approved funding level for
the grant by the number of months approved for operation, unless specified amounts
have been approved in advance and are incorporated in the grant. In no case shall the
total amount advanced exceed the currently approved funding level of the grant. We
performed an analysis of JCM’s drawdowns of the cooperative agreement’s funds and
found that starting in November 2002, JCM’s drawdowns exceeded the approved
funding level divided by the number of months approved for the cooperative agreement.

        *            *             *             *             *                     *

JCM officials told us they are confident that the project will be sustained for the entire
grant period and into future years. In the event that ILAB funding will not be sufficient to
continue to the end of the grant, JCM officials told us they have considered obtaining
additional resources from other funding streams. However, JCM officials also told us
they have not started the application process to obtain these funds.

Subsequent to our fieldwork, in January 2005, ILAB officials informed us that JCM had
drawn all the cooperative agreement funds. In May 2005, ILAB received approval from
the Office of Administration and Management’s Procurement Review Board to provide
additional funding in the amount of $750,000 to extend the cooperative agreement with
JCM for an additional 3 years. ILAB officials told us they were waiting for the results of
our audit before awarding JCM the additional funding.

If ILAB officials decide to continue the cooperative agreement with JCM, they need to
ensure that JCM develops a realistic budget that includes all allowable and reasonable
administrative costs. Presently, the only cost data that JCM provides to ILAB officials is


16                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                                Jesus Cares Ministries
                                                               Reducing Child Labor Through Education

the quarterly Financial Status Report. This report is not sufficient for monitoring
purposes because the Financial Status Report only contains total outlays. ILAB officials
agreed with our conclusion that the Financial Status Report is not sufficient for
monitoring, however, OMB Circular A-1104, is restrictive in granting exceptions for
recipients subject to the Circular’s requirements. Therefore, it is difficult to request
information not required under the Circular.

Recommendations

We recommend that the Acting Deputy Under Secretary for International Labor Affairs:

1. Recover the $5,753 in questioned costs for the construction not approved and the
costs not adequately documented. Concerning the $151,216 in administrative costs
whose allocation to the cooperative agreement was not supported, direct JCM to
develop and submit for approval an indirect cost proposal, or other allocation
methodology, for the cooperative agreement period covering those costs that benefited
more than one program or activity. Based on the results of the approved indirect cost
rate or other allocation methodologies, recover the amount of any administrative costs
that JCM overcharged the cooperative agreement.

2. Recover $741 of unallowable religious activity costs from JCM.

3. Verify that JCM revised the video tape cited in Finding Number 2, and instruct JCM
to ensure that any media it produces, such as videotapes or literature, that credits DOL
as JCM’s primary funding source and simultaneously includes religious references,
includes language so that it is clear that DOL is not funding religious activities.

Agency Response

ILAB agrees with recommendations 1, 2, and 3.

JCM Response

JCM agrees with recommendations 1, 2 and 3.

OIG Conclusion

Recommendations 1 and 2 will be resolved through the audit resolution process.
Recommendation 3 is resolved and will be closed when ILAB provides documentation
that it notified JCM of the requirement in the ICLP Management and Procedures
Guidelines to seek approval prior to the release of awareness raising materials
produced with DOL funds.



4
 Uniform Administrative Requirements for Grants and Agreements With Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations.

U.S. Department of Labor—Office of Inspector General                                                    17
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education

We recommend that the Deputy Under Secretary for International Labor Affairs direct
JCM to take the following corrective action:

4. Review and become knowledgeable of OMB Circular A-122 principles, and develop
and implement procedures and controls, or comply with existing procedures and
controls, so that:

     a. approval is obtained from ILAB before incurring costs for capital construction
        projects;
     b. costs are adequately supported; and
     c. costs are allocated to the benefiting programs, including the submission of an
        indirect cost proposal or other allocation methodology to DOL for approval.

5. Develop and implement procedures to ensure DOL funds are not used for religious
activity costs.

6. Budget for all administrative costs and factor in Zambia’s inflation rates.

7. Comply with the limits stated in the cooperative agreement concerning fund
drawdowns.

8. Provide detailed quarterly expenditure reports so that responsible ILAB officials can
compare the budgeted costs to actual expenses and significant variances are identified
and appropriate action is taken.

Agency Response

ILAB agrees with recommendations 4, 5, 6, 7, and 8.

JCM Response

JCM agrees with recommendations 4, 5, 6, 7, and 8.

OIG Conclusion

Recommendation 4 is resolved and will be closed when ILAB provides documentation
that it notified JCM of the requirement to comply with OMB Circular A-122 when the new
cooperative agreement is awarded.

Recommendations 5 and 6 are resolved and closed.

Recommendation 7 is resolved and will be closed when ILAB provides documentation
that it gave JCM on limits on drawdown of project funds when the new cooperative
agreement is awarded.




18                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education

Recommendation 8 is resolved and will be closed when ILAB provides documentation
that it required JCM to provide detailed quarterly expenditures by budget line item as a
special condition in the new cooperative agreement.




Elliot P. Lewis
May 20, 2005




U.S. Department of Labor—Office of Inspector General                                       19
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education




Exhibits




U.S. Department of Labor—Office of Inspector General                                       21
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education

                                                                                  EXHIBIT A




                             Schedule Of Questioned Costs


Cost Principles Not Followed
                                 Construction Costs Not Approved $2,020
                            Inadequate Supporting Documentation     3,733
                                              Costs Not Allocated 151,216
                                                Total                     $156,969

Unallowable Costs Related to Religious Activities
                   Teachers’ Salaries for Religious Education              $741
                                              Total                                      741

                                               TOTAL QUESTIONED COSTS $157,710




U.S. Department of Labor—Office of Inspector General                                       23
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                         Jesus Cares Ministries
                                                        Reducing Child Labor Through Education

                                                                                   EXHIBIT B

                          Schedule Of Costs Tested For
                    Reasonableness, Allowability, and Allocability

                               JESUS CARES MINISTRIES


                                                          Inadequate
                                                Amount                  Check
                   Category                                 Support
                                                Tested                 Number
                                                         Documentation
    Strength (School Rent and Repairs)           $10,501          $210 661804
    Professional Fees (Consulting, Legal,
                                                       5,799               529    895447
    and Audit)
    Withdrawal (School Fees for
                                                       2,968
    Children)
    Insurance (Vehicle Insurance)                      2,751                31    895533
                                                       2,056               275    882628
    Staff Compliments (Salaries and
                                                                           217    661929
    Wages)
                                                                           159    895434
    Uniforms (School Uniforms)                         1,502
    Monitoring (Salary for Monitor)                    1,465             1,465      97945
    Motor Vehicle (Fuel, Repairs, and
                                                       1,337               597    882653
    Insurance)
    Awareness (Outreach Preparations)                  1,174
    Rent (Security of Main Office)                       943
    General Administrative                               296
    Income Skills (Skills for Training
                                                        165                165    756509
    Parents)
    Equipment (Bicycle)                                  85                  85   661956

    Total
                                                 $31,042                $3,733




U.S. Department of Labor—Office of Inspector General                                        25
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




26                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education

                                                                                  EXHIBIT C

                                      Map of Zambia




U.S. Department of Labor—Office of Inspector General                                       27
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education


                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education




Appendices




U.S. Department of Labor—Office of Inspector General                                       29
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




30                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education

                                                                               APPENDIX A
BACKGROUND


ILAB’s Child Labor Education Initiative

From Fiscal Year 2001 through Fiscal Year 2005, appropriations for the Bureau of
International Labor Affairs (ILAB) have included $182 million to support international
efforts to eliminate child labor through programs that will improve access to basic
education in international areas with a high rate of abusive and exploitative child labor.

The overall purpose of DOL's Child Labor Education Initiative (EI) is to work toward the
elimination of the worst forms of child labor through the provision of basic education. In
addition to providing direct education and training opportunities to working children and
those at risk of engaging in exploitive work, EI projects support the following goals:

   1. To raise awareness of the importance of education for all children and mobilize a
      wide array of actors to improve and expand education infrastructures.

   2. To strengthen formal and transitional education systems that encourage working
      children and those at risk of working to attend schools.

   3. To strengthen national institutions and policies on education and child labor.

   4. To ensure the long-term sustainability of these efforts.




                                      Stone Crushing




31
U.S. Department of Labor—Office of Inspector General
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education

Jesus Cares Ministries

JCM was registered in 1996 in Zambia under their Social Societies Act as a community-
based non-governmental organization with a vision to uplift the living standards and
protect the rights of vulnerable children. In September 2002, ILAB awarded JCM a
cooperative agreement based on a DOL competitive procurement. The effective period
of the cooperative agreement was from September 1, 2002, through August 27, 2006.
ILAB’s Education Initiative funds the agreement, originally limited to $553,000. On
January 2, 2003, the cooperative agreement was increased to $652,000 to fund
additional activities, services, equipment, and supplies deemed essential for project
success in achieving its stated goals, purpose, and objectives. JCM’s goal in the
cooperative agreement was to serve 2,040 children. In January 2005, JCM reported to
ILAB that they served 2,747 children.5

JCM’s goals for the cooperative agreement consists of: (1) Making parents, teachers,
and community members aware of the importance of education and the negative effects
of child labor; (2) Strengthening transitional education systems; (3) Sensitizing national
institutions that make policy on child labor and education; and (4) Sustaining the JCM
vulnerable children program on a long term basis. To achieve these goals, JCM uses
ILAB’s Education Initiative funds to operate eight transitional schools in the Copperbelt
Province, Eastern Province, and Lusaka Province. (See Exhibit C for a map of Zambia.)




                                     Students in front of JCM school
Zambia

In the early 1890s, the British South Africa Company (BSAC) laid claim to the land
currently occupied by Zambia, located in the sub-Saharan region of Africa, for mining

5
 Our audit did not include participant eligibility or reported performance data and outcomes; therefore, this number
was not audited.

32                                                  U.S. Department of Labor—Office of Inspector General
                                                                        Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education

enterprises. The British Government backed BSAC in 1895 to combat slavery and
prevent Portuguese expansion in the region. The colony was put under direct British
control in 1924. Upon independence in October 1964, the name was changed to the
Republic of Zambia.

The economic and health statistics of Zambia depict a harsh life. The life expectancy is
only 40 years old. Approximately 17 percent of the 11.3 million population is infected
with AIDS. Half of the children under the age of 16 have lost at least one parent to the
AIDS epidemic.

As of 2000, it was estimated that the unemployment rate was 50 percent. Of those
employed, 85 percent work in agriculture. The monthly average wage rate for skilled
workers is $60 US and $25 US for unskilled laborers. Inflation from 2000 to 2003
fluctuated from a high of 32 percent (2000) to a low of 17 percent (2003).

Zambia’s culture is very religious. Between 50 to 75 percent of its population is
Christian, predominately Catholic. The remaining 25 to 50 percent practice either
Muslim, Hindu, or indigenous beliefs. The preamble to Zambia’s Constitution declares
Zambia as a Christian nation. According to U.S. Embassy officials, Zambian law
requires public school children to attend Christian religious training.




U.S. Department of Labor—Office of Inspector General                                       33
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




34                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education

                                                                               APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

The purpose of our audit was to obtain answers to concerns ILAB had regarding JCM’s
administration of the cooperative agreement. Specifically, our objectives were:

        1. Did JCM obtain approval from ILAB for program funds used for building
           construction?

        2. Did JCM use program funds for religious activities?

        3. Does JCM have adequate funding to sustain the program through the
           cooperative agreement period?

In addition to ILAB’s concerns, we also wanted to review additional costs to determine if
JCM used program funds in accordance with Office of Management and Budget (OMB)
Circular A-122 cost principles. OMB Circular A-122 establishes the principles for
determining costs of grants, contracts, and other agreements with nonprofit
organizations.

Scope

The scope of the audit was the cooperative agreement entitled “Combating Child Labor
Through Education” that ILAB awarded to JCM. Our audit covered expenditures and
activities for the period September 1, 2002, to August 31, 2004. Our audit did not
include participant eligibility or JCM’s reported performance data and outcomes.

Because our objective was limited to the three issues identified by ILAB and our
concern about additional costs, we determined if JCM established written policies and
procedures that addressed the internal controls related to our objectives. We performed
limited testing of JCM’s internal controls, as they related to our objectives. We reviewed
a sample of expenditures to determine if they were allowed, authorized, approved, and
supported. We also reviewed controls relating to the preparation of the budget. We do
not provide any assurances over the extent to which internal controls were properly
designed or operating in JCM other than those we tested. The testing we performed is
described in the following section.

We conducted our audit in accordance with Government Auditing Standards, issued by
the Comptroller General of the United States, and included such tests, that we
considered necessary to satisfy the objectives of the audit.




U.S. Department of Labor—Office of Inspector General                                       35
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education



Methodology

We conducted audit fieldwork between September 13, 2004, and May 20, 2005. To
accomplish our objectives, we conducted interviews with ILAB and JCM staff, affiliated
parties, and US Embassy officials. We reviewed materials related to project
implementation and observed off-site operations that were instrumental to meeting
cooperative agreement requirements.

We performed audit work at JCM headquarters located in Lusaka, Zambia from
September 13, 2004 to September 24, 2004. We also visited four of the eight schools
operated by JCM: Mtendere, Nsanjika, Chiparamba, and Kagoro.

To determine if expenses charged to the cooperative agreement met OMB Circular A-
122 cost principles, we reviewed all the construction costs because these costs were a
specific concern of ILAB. We also tested a sample of non-construction expenditures.
To test construction costs, we examined vouchers, general ledgers, and supporting
documentation, including invoices. We tested 100 percent of the $11,713 of
construction costs to confirm costs charged to the cooperative agreement. We
reviewed the general ledger for posting to other accounts to determine if JCM charged
any construction costs to other accounts. In addition, we performed a physical
observation of the construction work performed at four of the six schools that had
recorded construction costs. The four schools were judgmentally selected based on
location and the amount of construction costs at the school. To test nonconstruction
costs, we traced our judgmental sample of expenditures to the general ledger and
examined supporting documentation including vouchers and invoices and charges. We
tested 34 invoices and charges totaling $31,042, or 6 percent, of the $560,559 reported
costs charged to the cooperative agreement as of August 31, 2004. Our judgmental
sample consisted of transactions that were high-risk based on the dollar value or
appeared to contain elements of risk based on the purpose or payee.

To test whether any costs charged were for religious activities, we examined vouchers,
general ledger accounts, and supporting documentation. Through observations, we
identified materials with religious references including the videotape, a newsletter, T-
shirts, and other items of clothing. We identified general ledger accounts that potentially
included posting of these and other religious costs, such as school materials, billboards,
and flyers. We judgmentally selected invoices totaling $22,729 from these accounts
totaling $27,331, examined the invoice, and using auditor judgment, determined if the
costs were related to religious activities or purchases. In addition, we visited schools
and interviewed teachers to determine the amount of time teachers spent teaching
religion. Using an employee roster, salary schedule, and results of our interviews, we
calculated the total amount of teachers’ salary for religious instruction during the audit
period.

We interviewed appropriate officials from JCM to determine their role within the
organization and actions taken to support sustainability of the program. We compared

36                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education

JCM’s budget to actual expenses as of August 31, 2004, to compute the remaining
funding by budgeted line item.

We did not review participant files to determine if there was adequate documentation to
support eligibility, services received, or outcomes obtained. Therefore, we cannot
report on eligibility, services delivered, or outcomes obtained. However, we discuss
with ILAB officials their review of performance and outcome data.

We performed audit work subsequent to our visit to JCM in Zambia. During the period
January 19, 2005 though May 20, 2005, we obtained additional information from JCM
officials on budgeted line items and clarification of administrative costs items. We also
discussed with ILAB officials the adequacy of monitoring reports, JCM’s funding status,
and plans for providing additional funding. ILAB officials provided us revised policies
and procedures for administering and monitoring their grants and cooperative
agreements. Finally, we consulted with OIG legal counsel regarding religious activity
costs.

Criteria

We used the following criteria to accomplish our audit:

   •   Cooperative Agreement Solicitation, Cooperative Agreement, and all
       Modifications

   •   U.S. Constitution’s First Amendment

   •   Uniform Administrative Requirements:
       29 CFR part 95, for Institutions of Higher Education, Hospitals and other
       Non-Profit Organizations, effective July 27, 1994

   •   OMB Circular A-122,
       Cost Principles for Non-Profit Organizations dated June 1, 1998 and
       May 10, 2004.




U.S. Department of Labor—Office of Inspector General                                       37
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




38                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education

                                                                               APPENDIX C
ACRONYMS AND ABBREVIATIONS

       CFR Code of Federal Regulations

       DOL United States Department of Labor

       FY     Fiscal Year

       ILAB Bureau of International Labor Affairs

       ILO    International Labor Organization

       IPEC International Program on the Elimination of Child Labor

       JCM Jesus Cares Ministries

       OIG    Office of Inspector General

       OMB Office of Management and Budget




U.S. Department of Labor—Office of Inspector General                                       39
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




40                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education

                                                                               APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                       41
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education




42                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education




U.S. Department of Labor—Office of Inspector General                                       43
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education




44                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education




U.S. Department of Labor—Office of Inspector General                                       45
Report Number: 03-05-001-01-070
Jesus Cares Ministries
Reducing Child Labor Through Education




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




46                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-001-01-070
                                                                        Jesus Cares Ministries
                                                       Reducing Child Labor Through Education



JCM RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                       47
Report Number: 03-05-001-01-070
